Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MEDICARE COMPLIANCE
  REVIEW OF MASSACHUSETTS
     GENERAL HOSPITAL
    FOR CALENDAR YEARS
       2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                        April 2014
                                                      A-01-12-00520
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Massachusetts General Hospital did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in net overpayments of approximately $1.2 million
over more than 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Massachusetts General Hospital (Mass
General) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Mass General is a 1,046-bed acute care hospital located in Boston, Massachusetts. Medicare
paid Mass General approximately $766 million for 33,702 inpatient and 752,283 outpatient
claims for services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s
National Claims History data.

Our audit covered $4,449,487 in Medicare payments to Mass General for 590 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 238 inpatient and 352
outpatient claims. Of these 590 claims, 572 had dates of service in CYs 2010 or 2011, and 18
claims (involving outpatient drugs) had dates of service in CYs 2009 or 2012.

WHAT WE FOUND

Mass General complied with Medicare billing requirements for 137 of the 590 inpatient and
outpatient claims we reviewed. However, Mass General did not fully comply with Medicare
billing requirements for the remaining 453 claims, resulting in net overpayments of $1,181,228
for CYs 2010 and 2011 (437 claims), CY 2009 (15 claims), and CY 2012 (1 claim).
Specifically, 183 inpatient claims had billing errors, resulting in net overpayments of $720,393,


Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                     i
and 270 outpatient claims had billing errors, resulting in overpayments of $460,835. These
errors occurred primarily because Mass General did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that Mass General:

    •   refund to the Medicare contractor $1,181,228, consisting of $720,393 in net
        overpayments for 183 incorrectly billed inpatient claims and $460,835 in overpayments
        for 270 incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

MASSACHUSETTS GENERAL HOSPITAL COMMENTS

In written comments on our draft report, Mass General stated that it was generally in agreement
with our conclusions and recommendations. Mass General also stated that it has taken several
steps to strengthen internal controls and has initiated processing the necessary adjustments with
the Medicare contractor. We acknowledge Mass General’s efforts to implement stronger
controls.




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                  ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

       Objective ...............................................................................................................................1

       Background ...........................................................................................................................1
           The Medicare Program ..................................................................................................1
           Hospital Inpatient Prospective Payment System ...........................................................1
           Hospital Outpatient Prospective Payment System ........................................................1
           Hospital Claims at Risk for Incorrect Billing ................................................................2
           Medicare Requirements for Hospital Claims and Payments .........................................3
           Massachusetts General Hospital ....................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................4

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed as Inpatient or Without a Valid Physician Order .............................4
            Incorrect Discharge Status Codes..................................................................................5
            Incorrect Source-of-Admission Code............................................................................5
            Manufacturer Credit for a Replaced Medical Device Not Reported or Obtained .........6
            Incorrectly Billed Diagnosis-Related Group Codes ......................................................6

       Billing Errors Associated With Outpatient Claims................................................................7
            Incorrect Billing for Dental Services .............................................................................7
            Incorrectly Billed Number of Units and/or
               Healthcare Common Procedure Coding System Codes.............................................7
            Manufacturer Credits for Replaced Medical Devices Not Reported .............................7
            Incorrectly Billed Outpatient Services Provided During an Inpatient Stay ...................8
            Insufficiently Documented Services ..............................................................................8
            Incorrectly Billed Observation Services ........................................................................8
            Incorrectly Billed Outpatient Services With Modifier -59 ............................................9
            Incorrectly Billed Evaluation and Management Services ..............................................9

RECOMMENDATIONS .............................................................................................................10

MASSACHUSETTS GENERAL HOSPITAL COMMENTS ....................................................10

APPENDIXES

      A: Audit Scope and Methodology .......................................................................................11




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                                                 iii
     B: Results of Review by Risk Area .....................................................................................13

     C: Massachusetts General Hospital Comments...................................................................14




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                              iv
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Massachusetts General Hospital (Mass General)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                    1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources. In addition to the basic payments, hospitals may be eligible
for an additional payment, called an outlier payment, when the hospital’s costs exceed certain
thresholds.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient short stays,

    •    inpatient and outpatient claims paid greater than charges,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient transfers

    •    inpatient psychiatric facility (IPF) emergency department adjustments,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient same-day discharge and readmission,

    •    inpatient hospital-acquired conditions and present on admission indicator reporting,

    •    outpatient dental services,

    •    outpatient drugs,

    •    outpatient claims billed during inpatient stays,

    •    outpatient claims billed with observation services that resulted in outlier payments,

    •    outpatient claims billed with modifier -59, and

    •    outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                 2
Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (section 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR §
424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

Massachusetts General Hospital

Mass General is a 1,046-bed acute care hospital located in Boston, Massachusetts. Medicare
paid Mass General approximately $766 million for 33,702 inpatient and 752,283 outpatient
claims for services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s
National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $4,449,487 in Medicare payments to Mass General for 590 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 238 inpatient and 352
outpatient claims. Of these 590 claims, 572 had dates of service in CYs 2010 or 2011 and 18
claims (involving outpatient drugs) had dates of service in CYs 2009 or 2012. 2 We focused our
review on the risk areas that we had identified as a result of previous OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 94 claims
to focused medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Mass General for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.


2
  We selected these 18 claims for review because they were brought to our attention through an OIG audit of high-
risk outpatient drugs. We did not include these claims in the scope of the other audit.


Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                  3
                                                   FINDINGS

Mass General complied with Medicare billing requirements for 137 of the 590 inpatient and
outpatient claims we reviewed. However, Mass General did not fully comply with Medicare
billing requirements for the remaining 453 claims, resulting in net overpayments of $1,181,228
for CYs 2010 and 2011 (437 claims), CY 2009 (15 claims), and CY 2012 (1 claim).
Specifically, 183 inpatient claims had billing errors, resulting in net overpayments of $720,393,
and 270 outpatient claims had billing errors, resulting in overpayments of $460,835. These
errors occurred primarily because Mass General did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors. For the
results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Mass General incorrectly billed Medicare for 183 of 238 selected inpatient claims, which
resulted in net overpayments of $720,393.

Incorrectly Billed as Inpatient or Without a Valid Physician Order

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Act also states: payment for services furnished
to an individual may be made only to providers of services that are eligible and only if, “with
respect to inpatient hospital services ... which are furnished over a period of time, a physician
certifies that such services are required to be given on an inpatient basis for such individual’s
medical treatment …” (section 1814(a)(3)). Additionally, Medicare Part A pays for inpatient
hospital services “… only if a physician certifies and recertifies, among other things, the reasons
for continued hospitalization” (42 CFR § 424.13(a)).

For 89 of the 238 selected claims, Mass General incorrectly billed Medicare Part A for
beneficiary stays that either should have been billed as outpatient or outpatient with observation
services (87 claims), or did not have a valid physician’s order to admit the beneficiary to
inpatient care (2 claims). For the majority of these claims, Mass General stated that case
management staff relied on external level-of-care screening criteria and followed all available
Medicare guidance, which Mass General officials believe is unclear. Additionally, Mass General
attributed some errors to incomplete documentation by admitting physicians. For a limited
number of claims, Mass General did not provide a cause because it did not agree with these
billing errors. As a result of these errors, Mass General received overpayments of $675,922. 3




3
 Mass General may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                    4
Incorrect Discharge Status Codes

Hospitals must bill inpatient discharges as transfers when the patient is readmitted the same day
to another hospital unless the readmission is unrelated to the initial discharge (42 CFR §
412.4(b)). A hospital that transfers an inpatient under the above circumstance is paid a graduated
per diem rate for each day of the patient’s stay in that hospital, not to exceed the full DRG
payment that would have been paid if the patient had been discharged to another setting (42 CFR
§ 412.4(f)).

For 6 of the 238 selected claims, Mass General incorrectly billed Medicare for patient discharges
that were transfers to other hospitals. For these claims, Mass General incorrectly:

    •   coded the discharge status as “left against medical advice” based on the highest level of
        care known at the time of discharge and its plan for the patient; however, our audit found
        that these patients were admitted to other acute care hospitals on the same day (3 claims);

    •   coded the discharge status to home (2 claims); or

    •   coded the discharge status as transferred to another institution not defined elsewhere (1
        claim).

Therefore, Mass General should receive a per diem payment instead of the full DRG payment
when the claims are billed correctly. Mass General officials stated that some of these errors
occurred because the patients left against medical advice and staff did not know until our audit
that the patients entered other facilities, and other errors occurred because of human error. As a
result of these errors, Mass General received overpayments of $29,580.

Incorrect Source-of-Admission Code

CMS adjusts the Federal per diem rate upward for the first day of a Medicare beneficiary’s IPF
stay to account for the costs associated with maintaining a qualifying emergency department (42
CFR § 412.424). The Manual states that CMS makes this additional payment regardless of
whether the beneficiary used emergency department services; however, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute care section of
the same hospital (chapter 3, § 190.6.4). The Manual also states that IPFs report source-of-
admission code “D” to identify patients who have been transferred to the IPF from the same
hospital (chapter 3, § 190.6.4.1). An IPF’s proper use of this code is intended to alert the
Medicare contractor not to apply the emergency department adjustment.

For 82 of the 238 selected claims, Mass General incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute care section. Mass
General officials stated that the errors occurred because source-of-admission code “D” was not
an available option in Mass General’s billing system. As a result of these errors, Mass General
received overpayments of $7,278.




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                    5
Manufacturer Credit for a Replaced Medical Device Not Reported or Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). Federal regulations state: “All payments to providers of services
must be based on the reasonable cost of services …” (42 CFR § 413.9). The Manual states that
to bill correctly for a replacement device that was provided with a credit, hospitals must code
Medicare claims with a combination of condition code 49 or 50, along with value code “FD”
(chapter 3, § 100.8).

The CMS Provider Reimbursement Manual (PRM) reinforces these requirements in additional
detail (Pub. No. 15-1). 4

For 2 of the 238 selected claims, Mass General either received a reportable medical device credit
from a manufacturer for a replaced device, but did not adjust its inpatient claim with the proper
condition and value codes to reduce payment as required, or did not obtain a credit for a replaced
medical device for which a credit was available under the terms of the manufacturer’s warranty.
Mass General officials stated that the errors occurred due to human error. As a result of these
errors, Mass General received overpayments of $4,550.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act § 1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 4 of the 238 selected claims, Mass General billed Medicare for incorrect DRG codes. Mass
General officials stated that two of the errors occurred due to human error. Mass General did not
provide a cause for the remaining two errors because it did not agree with these billing errors.
As a result of these errors, Mass General received net overpayments of $3,063.




4
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service. If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program” (part I, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits available under the terms of the warranty covering the replaced equipment. The credits or payments that
could have been obtained must be reflected as a reduction of the cost of the equipment.”



Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                    6
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Mass General incorrectly billed Medicare for 270 of 352 selected outpatient claims, which
resulted in overpayments of $460,835. One claim contained more than one type of error.

Incorrect Billing for Dental Services

The Act states: “No payment may be made under Medicare Part A or Part B for any expenses
incurred for items or services where such expenses are for services in connection with the care,
treatment, filling, removal, or replacement of teeth or structures directly supporting teeth ...”
(section 1862(a)(12)).

For 105 of the 352 selected claims, Mass General incorrectly billed Medicare for the treatment or
removal of teeth. Mass General stated these errors occurred because it relied on a third-party
presubmission claim-editing tool that did not contain an edit to identify noncovered dental
services. As a result of these errors, Mass General received overpayments of $200,527.

Incorrectly Billed Number of Units and/or Healthcare Common Procedure Coding System
Codes

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units ... is the number of times the service or procedure being reported was performed …”
(chapter 4, § 20.4).

For 30 of the 352 selected claims, Mass General submitted claims to Medicare with an incorrect
number of units and/or incorrect HCPCS codes. Mass General officials stated the errors
occurred due to human error. As a result of these errors, Mass General received overpayments of
$162,850.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR §
419.45). For services furnished on or after January 1, 2007, CMS requires the provider to report
the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 5


5
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                           7
For 3 of the 352 selected claims, Mass General received full credit for replaced devices but did
not properly report the “FB” modifier and reduced charges on its claims. Mass General officials
stated that the errors occurred due to human error. As a result of these errors, Mass General
received overpayments of $42,150.

Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3, §
10.4).

For 115 of the 352 selected claims, Mass General incorrectly billed Medicare Part B for
outpatient services provided during an inpatient stay. Mass General officials stated that the
errors occurred primarily because Mass General’s outpatient registrar staff was not aware that
the patients receiving these outpatient services were admitted to another inpatient facility at the
time of the service. As a result of these errors, Mass General received overpayments of $33,189.

Insufficiently Documented Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (section 1833(e)).

For 3 of the 352 selected claims, Mass General incorrectly billed Medicare for services that were
not supported in the medical record. Mass General officials stated that these errors occurred due
to human error. As a result of these errors, Mass General received overpayments of $12,537.

Incorrectly Billed Observation Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act § 1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).
The Manual (chapter 1, § 50.3.2) also states:

        However, in accordance with the general Medicare requirements for services
        furnished to beneficiaries and billed to Medicare, even in Condition Code 44
        situations, hospitals may not report observation services using HCPCS code
        G0378 (Hospital observation service, per hour) for observation services furnished
        during a hospital encounter prior to a physician's order for observation services.
        Medicare does not permit retroactive orders or the inference of physician orders.

The Manual states: “Observation services are covered only when provided by the order of a
physician or another individual authorized by State licensure law and hospital staff bylaws to
admit patients to the hospital or to order outpatient services” (chapter 4, § 290.1). “Observation
time begins at the clock time documented in the patient’s medical record, which coincides with
the time that observation care is initiated in accordance with a physician’s order …. Observation
time ends when all medically necessary services related to observation care are completed ….


Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                   8
Reported observation time would not include the time patients remain in the hospital after
treatment is finished …” (chapter 4, § 290.2.2).

For 6 of the 352 selected claims, Mass General incorrectly billed Medicare for observation
services that included incorrect units of billed observation services (4 claims) and lacked timely
physician orders for observation services (2 claims). For the two claims that lacked timely
physician orders, the physician signed one order after the observation care was no longer
necessary and signed the other order when the observation services were nearly complete.

These errors resulted in a higher outlier payment than was warranted. Mass General officials
stated the majority of the errors occurred because it did not have sufficient controls to accurately
capture observation units in situations where there were either delays in moving a patient to a
unit for observation services or delays in entering an observation order in the medical record. In
some cases, the patient began to receive observation services in accordance with a verbal order.
As a result of these errors, Mass General received overpayments of $7,696.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states: “The ‘59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 1 of the 352 selected claims, Mass General incorrectly billed Medicare for a HCPCS code
with modifier -59 for a service that was already included in the payment for another service
billed on the same claim. Mass General officials stated that the error occurred due to human
error. As a result of this error, Mass General received an overpayment of $1,438.

Incorrectly Billed Evaluation and Management Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (section 1833(e)). The Manual states that a
Medicare contractor pays for an E&M service that is significant, separately identifiable, and
above and beyond the usual preoperative and postoperative work of the procedure (chapter 12, §
30.6.6(B)).

For 8 of the 352 selected claims, Mass General incorrectly billed Medicare for E&M services
that were not significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure. Mass General officials stated that these errors occurred
primarily due to a lack of physician education regarding Medicare requirements for billing E&M
services. As a result of these errors, Mass General received overpayments of $448.




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                    9
                                      RECOMMENDATIONS

We recommend that Mass General:

    •   refund to the Medicare contractor $1,181,228, consisting of $720,393 in net
        overpayments for 183 incorrectly billed inpatient claims and $460,835 in overpayments
        for 270 incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                  MASSACHUSETTS GENERAL HOSPITAL COMMENTS

In written comments on our draft report, Mass General stated that it was generally in agreement
with our conclusions and recommendations. Mass General also stated that it has taken several
steps to strengthen internal controls and has initiated processing the necessary adjustments with
the Medicare contractor. We acknowledge Mass General’s efforts to implement stronger
controls. Mass General’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                  10
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $4,449,487 in Medicare payments to Mass General for 590 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 238 inpatient and 352
outpatient claims. Of these 590 claims, 572 had dates of service in CYs 2010 or 2011 and 18
claims (involving outpatient drugs) had dates of service in CYs 2009 or 2012.

We focused our review on the risk areas that we had identified as a result of prior Office of
Inspector General reviews at other hospitals. We evaluated compliance with selected billing
requirements and subjected 94 claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of Mass General’s internal controls to those applicable to the inpatient
and outpatient areas of review because our objective did not require an understanding of all
internal controls over the submission and processing of claims. We established reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Mass General for Medicare reimbursement.

Our fieldwork included contacting Mass General in Boston, Massachusetts, from October 2012
through November 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Mass General’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2010 and 2011;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 590 claims (238 inpatient and 352 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                     11
    •   reviewed the itemized bills and medical record documentation provided by Mass General
        to support the selected claims;

    •   requested that Mass General conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed Mass General’s procedures for submitting Medicare claims;

    •   used an independent medical review contractor to determine whether 94 selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with Mass General personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Mass General officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                   12
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA

                                                                                                     Claims
                                                                                                   With Under      Value of Net
                                                                 Selected          Value of          / Over-          Over-
                         Risk Area                               Claims        Selected Claims      payments        payments
Inpatient
Short Stays                                                         100                $616,709         78              $474,665

Claims Paid Greater Than Charges                                    10                  281,025          6                   152,847
Claims Billed With High Severity Level Diagnosis-Related
                                                                    20                  366,445          9                    51,473
Group Codes
Transfers                                                            6                    96,282         6                    29,580

Psychiatric Facility Emergency Department Adjustments               82                 1,257,773        82                     7,278

Manufacturer Credits for Replaced Medical Devices                    9                  395,181          2                     4,550

Same-Day Discharge and Readmission                                   1                    32,713         0                        0
Hospital-Acquired Conditions and Present on Admission
                                                                    10                  171,994          0                        0
Indicator Reporting
 Inpatient Totals                                                   238              $3,218,122         183             $720,393


Outpatient
Dental Services                                                     111                $229,824         106             $200,591

Drugs                                                               54                  441,242         28                   139,974

Claims Paid Greater Than Charges                                     5                    76,775         3                    47,383

Claims Billed During Inpatient Stays                                115                   33,189        115                   33,190

Manufacturer Credits for Replaced Medical Devices                   10                  285,849          2                    28,463
Claims Billed With Observation Services That Resulted in
                                                                    10                    26,461         6                     7,696
Outlier Payments
Claims Billed With Modifier -59                                     27                  118,980          3                     2,704

Claims Billed With Evaluation and Management Services               20                    19,045         7                      834

 Outpatient Totals                                                  352              $1,231,365         270             $460,835


 Inpatient and Outpatient Totals                                    590              $4,449,487         453            $1,181,228
        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
        billing errors we found at Mass General. Because we have organized the information differently, the information in
        the individual risk areas in this table does not match precisely with this report’s findings.



        Medicare Compliance Review of Massachusetts General Hospital (A-01-12-00520)                                  13
         APPENDIX C: MASSACHUSETTS GENERAL HOSPITAL COMMENTS



g          MASSACHUSETTS
 •         GENERAL HOSPITAL

55 Fruit Street, Bulfinch 380                                                           Sally Mason Boerner
Boston, Massachusetts 02114-2696                                                 Senior Vice President for Finance
Tel: 617.724.4537. Fax: 617.726.2838
E-mail: smasonboemer@partners.org




March 5, 2014

Mr. David Lamir
Regional Inspector General for Audit Services
Office of Inspector General
JFK Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

Dear Mr.Larnir:

We appreciate the opportunity to respond to the draft report of your Medicare Compliance
Review of Massachusetts General Hospital (MGH) for cal endar years 201 0 and 201 1. We are
generally in agreement with the conclusions and recommendations detailed in the report.

As a result of this review, MGH has initiated processing the necessary adjustments with the
Medicare Administrative Contractor, National Government Services.

MGH has also taken several steps to strengthen our controls in each of the areas noted in the
review, as was detailed in our previously submitted Internal Controls Questionnaires.

We appreciate the professionalism with which your staff completed this review. Please let me
know if you have any questions concerning our ongoing efforts to ensure appropriate
documentation and billing for services provided to all patients.

Sincerely,


~ {hetovn B~
Sally Mason Boerner
Senior Vice President for Finance
Massachusetts General Hospital




lvfedicare Compliance Review ofMassachusetts General Hospital (A-0 1-12-00520)                                14
